OIG Audit Report GR-40-08-002

Office of Justice Programs Bureau of Justice Assistance Grant Awarded to the Seventh Judicial Administrative District Tallapoosa Drug Intervention Program, Cartersville, Georgia

Audit Report GR-40-08-002


March 2008
Office of the Inspector General


Executive Summary


The Office of the Inspector General, Audit Division has completed an audit of grant number 2005-DC-BX-0013 authorized by the Violent Crime Control and Law Enforcement Act of 1994 and awarded by the Office of Justice Programs (OJP), Bureau of Justice Assistance (BJA), to the State of Georgia, Seventh Judicial Administrative District.1   The purpose of the grant was to complete the implementation of a pilot drug court program that was begun in Polk County, Georgia, in January 2004, and to expand the program to Haralson County.  Polk and Haralson counties are in Northwest Georgia approximately 60 miles west of Atlanta.
 We tested compliance with essential grant conditions pertaining to grant accomplishments, reporting, grant-fund drawdowns, budget management and control, grant expenditures, local matching requirements, program income, and monitoring of subrecipients. In addition, we tested the accounting records to determine if reimbursements claimed for costs under the grant were allowable, supported, and in accordance with applicable laws, regulations, guidelines, and the terms and conditions of the grant. As a result of the following audit findings, we identified $2,908 in questioned costs.2

 For the nine Financial Status Reports that we tested, the federal share of outlays were understated on four reports, overstated on four reports, and accurately reported on one report.
For the five Progress Reports that we tested, two reports were submitted 15 and 17 days late. 
 The grantee drew down from the federal Treasury $3,865 in grant funds that it held without expending for more than 10 business days. 
 The grantee paid court system employees directly from user fees outside of the normal payroll process and did not withhold for taxes and other withholdings. 
 The grantee could not support $1,291 in expenses charged to the grant. 
 The grantee incorrectly categorized $2,501 in program income as matching funds. 
 Two accounting systems being used to track user fees collected did not reconcile with one another. 

 These concerns are discussed in detail in the Findings and Recommendations section of the report. Our audit objectives, scope, and methodology appear in Appendix I. 



Footnotes

The Seventh Judicial District is located in Northwest Georgia and consists of 14 counties, 8 circuits, and 34 superior court judges.
The Inspector General Act of 1978, as amended, contains our reporting requirements for questioned costs and funds put to better use. However, not all findings are dollar-related. See Appendix II for a breakdown of our dollar-related findings and for a definition of questioned costs.








Return to OIG Home Page